    December 16, 2005




 Oversight Review
Report on Quality Control Review of the
PricewaterhouseCoopers LLP and the
Defense Contract Audit Agency Office of
Management and Budget Circular A-133
Audit Report of the RAND Corporation,
Fiscal Year Ended September 29, 2002
(Report No. D-2006-6-002)




               Department of Defense
           Office of the Inspector General
 Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at www.dodig.mil/audit/reports or contact the Office of
  Audit Policy and Oversight at (703) 604-8760 or fax (703) 604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of Audit Policy
  and Oversight at (703) 604-8760 (DSN 664-8760) or fax (703) 604-9808. Ideas
  and requests can also be mailed to:

                                     OAIG-APO
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 1016)
                             Arlington, VA 22202-4704
  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

DCAA                  Defense Contract Audit Agency
DOD OIG               Department of Defense Office of Inspector General
FFRDC                 Federally Funded Research and Development Centers
GAS                   Government Auditing Standards
OMB                   Office of Management and Budget
PWC                   PricewaterhouseCoopers
SEFA                  Schedule of Expenditures of Federal Awards
Review Results. PWC and DCAA auditors generally met GAS and OMB Circular A-
133 requirements for the single audit of the RAND Corporation for FY 2002. However,
coordination, planning, performance, and documentation could be improved for future
single audits (findings A and B). The RAND Corporation generally complied with OMB
Circular A-133 reporting requirements except that the Schedule of Expenditures of
Federal Awards (SEFA) did not include time and material contracts (finding C).

Management Comments. PWC and DCAA management concurred with the
recommendations. Management comments are included in its entirety at the end of this
report.

Findings
Finding A. Audit Coordination for Single Audit. PWC and DCAA auditors could
improve coordination to avoid duplication of audit efforts for the Allowable Costs/Cost
Principles compliance requirement. While PWC and DCAA had coordination meetings
where they discussed audit responsibilities for the FY 2002 single audit, the division of
work resulted in a duplication of audit efforts. Because PWC was responsible for grants
and DCAA for contracts, both tested internal controls and compliance for the same
requirement. In addition, the audit coordination did not address responsibility for the
SEFA; therefore, PWC and DCAA duplicated audit efforts for the SEFA. Closer audit
coordination between PWC and DCAA will eliminate duplication and achieve a more
efficient audit.

Recommendation A. We recommend that the Partner-In-Charge,
PricewaterhouseCoopers, LLP, and the Branch Manager, Defense Contract Audit
Agency, San Fernando Valley Branch Office provide closer audit coordination and
reassess the division of audit responsibilities to ensure a more efficient audit for future
single audits.

PWC Comments. PWC management concurred with the recommendation.

DCAA Comments. DCAA management concurred with the recommendation.

Finding B. Planning, Performing, and Documentation. PWC and DCAA auditors
should enhance their audit procedures for planning, performing, and documenting the
work performed for future single audits.

    Planning and Performing the Single Audit. We identified during our quality
control review of the FY 2002 single audit the following issues related to planning and
performance:

        Reporting Compliance Requirement. PWC auditors did not plan to verify the
completeness and accuracy of the financial reports for the Reporting compliance
requirement. However, the PWC audit manager provided us with verbal explanations as
well as additional information of audit procedures performed and documented under the
financial statement audit to satisfy this requirement. Future single audits must include
audit steps for the audit of the major Federal program to verify the completeness and
accuracy of the financial reports, or cross-referenced to work performed under the
financial statement audit for the Reporting compliance requirement.




                                              2
        Compliance Testing for Special Tests and Provisions. PWC auditors did not
adequately identify and test compliance with special contract terms for determining
RAND compliance with the Special Tests and Provisions compliance requirement.
While PWC auditors performed audit procedures that tested compliance with special
contract terms identified, the auditors did not identify special contract terms and
conditions for the National Science Foundation contract. The contract contained terms
and conditions related to maximum payments for consultants; requirements for use of
subcontractors; and insurance liability to third parties. The PWC audit manager provided
documentation for audit procedures performed on insurance liability to third parties under
the financial statement audit; however, no information existed for the other two special
contract terms and conditions. PWC must identify special contract terms and conditions
as well as perform compliance testing for all contracts and grants selected for review in
future single audits.

        Consideration of Other Federal Agency Acquisition Supplement. The DCAA
auditors did not consider other Federal agency acquisition supplements to the Federal
Acquisition Regulation in planning and performing the test of direct costs for the
Allowable Costs/Cost Principles compliance requirement. As a result of our quality
control review, the DCAA auditors reviewed the other agency acquisition supplements
and concluded that no additional audit efforts were warranted.

   Documentation of Work Performed. We identified the following issues related to
documentation during our quality control review for the FY 2002 single audit:

        Special Tests and Provisions Compliance Requirement. PWC auditors did not
adequately document the test of internal controls for the Special Tests and Provisions
compliance requirement. The work papers did not include any documentation on the
understanding of the five components of internal control or the identification and test of
key controls. However, the PWC audit manager did show audit procedures performed on
internal controls under the financial statement audit and for the Activities
Allowed/Unallowed and the Allowable Costs/Cost Principles compliance requirements to
enable us to conclude that certain attributes of internal controls related to Special Tests
and Provisions were addressed.

        Procurement, Suspension and Debarment Compliance Requirement. PWC
auditors did not adequately document the compliance testing for the procurement aspect
of the Procurement, Suspension, and Debarment compliance requirement. Although the
work papers did not document audit procedures performed to determine whether
procurements were made in accordance with applicable procurement regulations and
RAND purchasing policies and procedures, we substantiated the PWC audit manager’s
explanation of the work performed through the audit documentation on internal controls,
the Subrecipient Monitoring compliance requirement, and from RAND purchasing
policies and procedures.

        Internal Control for Allowable Costs/Cost Principles. DCAA auditors did not
clearly identify key internal controls for the Allowable Costs/Cost Principles compliance
requirement, and work papers did not provide a clear audit trail for the testing performed.
The DCAA technical specialist had to provide verbal and written explanations specifying
when the internal control testing was performed and specific work paper references in
various audit assignments to enable us to conclude that DCAA performed adequate audit
procedures to test internal controls for the Allowable Costs/Cost Principles compliance
requirement.


                                             3
Recommendation B.1. We recommend that the Partner-In-Charge,
PricewaterhouseCoopers, LLP, plan, document, and cross-reference audit coverage that
meets Office of Management and Budget Circular A-133 objectives for future single
audits.

PWC Comments. PWC management agreed to take the action recommended.

Recommendation B.2. We recommend that the Branch Manager, Defense Contract
Audit Agency, San Fernando Valley Branch Office:

        a. Review and consider the applicable Federal agency acquisition supplements
for future single audits.

        b. Enhance documentation on internal controls so key controls are clearly
identifiable and audit procedures comply with Government Auditing Standards and
Office of Management and Budget Circular A-133 requirements.

DCAA Comments. DCAA management agreed to take the action recommended.

Finding C. Schedule of Expenditures of Federal Awards. The RAND Corporation
did not report all Federal awards on the SEFA for FY 2002 because it did not contain
$1.3 million in time and material contracts. RAND Corporation personnel originally
included time and material contracts in their draft SEFA but was advised by DCAA to
exclude them. The DCAA auditors provided incorrect advice based on their OMB A-133
audit program. DCAA headquarters agreed to correct their OMB A-133 audit program.
As a result of our quality control review, RAND Corporation included time and material
contracts in their SEFA for the most recent reporting package filed with the Federal Audit
Clearinghouse.

Recommendation C. We recommend that the Director, Defense Contract Audit Agency,
Headquarters correct the Office of Management and Budget Circular A-133 audit
program and include time and material contracts in the program.

DCAA Comments. DCAA management concurred with the recommendation.

Other Matters of Interest. We also identified the following issues and PWC will
implement corrective action for future single audits.

        Sampling Methodology. PWC auditors sampled 7 pre-selected contracts and
grants from 3 Federal agencies to test internal controls and compliance for the applicable
compliance requirements, except for the Activities Allowed/Unallowed and Allowable
Costs/Cost Principles compliance requirements. Based on the SEFA, RAND received
awards from thirteen Federal agencies. According to the American Institute of Certified
Public Accountants Statements Auditing Standards AU §350.24, sample items should be
selected in such a way that the sample can be expected to be representative of the
population. Therefore, all items in the population should have an opportunity to be
selected.

PWC Comments. PWC management stated that their sampling methodology has
significantly evolved since the FY 2002 single audit and that their current methodology
would provide for sample selections to be representative of the population and that all
items within the population would have the opportunity to be selected.


                                            4
Appendix A. Quality Control Review Process

Scope and Methodology
We conducted a quality control review of the PricewaterhouseCoopers, LLP, and the
Defense Contract Audit Agency audits of the RAND Corporation for FY 2002 and the
resulting reporting package that was submitted to the Federal Audit Clearinghouse dated
September 2, 2003. We performed our review using the 1999 edition of the “Uniform
Quality Control Guide for the A-133 Audits” (the Guide) and the project instruments the
Department of Education Inspector General office developed. The Guide applies to any
single audit subject to the requirements of OMB Circular A-133 and is the approved
President’s Council on Integrity and Efficiency checklist used for performing the quality
control reviews. Our review was conducted from June through October 2005 and
covered areas related to the RAND Corporation research and development cluster. As
the cognizant agency for the RAND Corporation, we focused our review on the following
qualitative aspects of the single audit:

       •   qualification of auditors,

       •   independence,

       •   due professional care,

       •   planning and supervision,

       •   internal control and compliance testing,

       •   Schedule of Expenditures of Federal Awards,

       •   Schedule of Findings and Questioned Costs,

       •   Summary Schedule of Prior Audit Findings, and

       •   Data Collection Form.
In conducting our review, we reviewed the work papers PWC and DCAA prepared. We
discussed the audit with the PWC and DCAA audit teams and the RAND Corporation
personnel.

Prior Quality Control Reviews
Since October 1, 1998, we have performed seven quality control reviews of PWC OMB
Circular A-133 audits. One of the seven reports contained deficiencies resulting in
findings and recommendations on audit planning, performance, and documentation, and
three reports contained suggestions for improvements to audit documentation and
continuing professional education.




                                            6
Since October 1, 1998, we have performed eight quality control reviews of DCAA OMB
Circular A-133 audits. Of the eight reports, five contained deficiencies resulting in
findings and recommendations on audit planning, performance, and documentation.

Single Audit Requirements
The intention of the Single Audit Act, Public Law 98-502, as amended, and OMB
Circular A-133 is to improve the financial management of State and local Governments
and non-profit organizations. The Single Audit Act and OMB Circular A-133 establish
one uniform set of auditing and reporting requirements for all Federal award recipients
required to obtain a single audit. OMB Circular A-133 establishes policies that guide
implementation of the Single Audit Act and provides an administrative foundation for
uniform audit requirements of non-Federal entities administering Federal awards.
OMB Circular A-133 requires that Federal departments and agencies rely on and use the
single audit work to the maximum extent practicable. Entities that expend $300,000
($500,000 for fiscal years ending after December 31, 2003) or more of Federal awards in
a fiscal year are subject to the Single Audit Act and the audit requirements in OMB
Circular A-133 and, therefore, must have an annual single or program-specific audit
performed under GAS. To meet the intent of the law and OMB Circular A-133
requirements, the auditee (non-Federal entity) submits to the Federal Audit
Clearinghouse a complete reporting package and a Data Collection Form on each single
audit. The submission includes the following:

       •   a Data Collection Form, certified by the auditee that the audit was completed
           in accordance with OMB Circular A-133;

       •   financial statements and related opinion;

       •   Schedule of Expenditures of Federal Awards and related opinion;

       •   report on compliance and internal control over financial reporting;

       •   report on internal control over compliance for major programs;

       •   report on compliance with requirements for major programs and related
           opinion;

       •   Schedule of Findings and Questioned Costs;

       •   Summary Schedule of Prior Audit Findings; and

       •   a corrective action plan, when appropriate.

The OMB Compliance Supplement (the Supplement) assists auditors identify compliance
requirements the Federal Government expects to be considered as part of the single audit.
For each compliance requirement, the Supplement describes the related audit objectives
that the auditor should consider in each audit conducted under OMB Circular A-133, as
well as suggested audit procedures. The Supplement also describes the objectives of
internal control and characteristics that, when present and operating effectively, may
ensure compliance with program requirements.




                                            7
The following 14 compliance requirements identified in the Supplement are applicable to
the research and development cluster.

       A.   Activities Allowed or Unallowed;
       B.   Allowable Costs/Cost Principles;
       C.   Cash Management;
       D.   Davis-Bacon Act;
       E.   Eligibility;
       F.   Equipment and Real Property Management;
       G.   Matching, Level of Effort, Earmarking;
       H.   Period of Availability of Federal Funds;
       I.   Procurement and Suspension and Debarment;
       J.   Program Income;
       K.   Real Property Acquisition and Relocations Assistance;
       L.   Reporting;
       M.   Subrecipient Monitoring; and
       N.   Special Tests and Provisions.

The Statement of Position 98-3, “Audits of States, Local Governments, and
Not-for-Profit Organizations Receiving Federal Awards,” published by the American
Institute of Certified Public Accountants, provides guidance on auditor responsibilities
for conducting audits according to the Single Audit Act and OMB Circular A-133 (the
American Institute of Certified Public Accountants converted the Statement of Position
into an audit guide in May 2003). In general, the Statement of Position 98-3 provides
auditors with an understanding of the unique planning, performance, and reporting
considerations for single audits performed under GAS. In addition, the Statement of
Position 98-3 uses summary tables and detailed discussions to provide the auditor with an
understanding of the additional general, fieldwork, and reporting requirements under
GAS, including the additional standards relating to quality control systems, continuing
professional education, work papers, audit follow-up and reporting.

The Statement of Position 98-3 emphasizes that when planning an audit to meet the
requirements of OMB Circular A-133, several factors should be considered in addition to
those ordinarily associated with an audit of financial statements in accordance with
Generally Accepted Auditing Standards and GAS. The factors include, but are not
limited to:

       •    determining that the Schedule of Expenditures of Federal Awards is presented
            fairly in relation to the financial statements;

       •    determining major programs for audit using a risk-based approach;

       •    determining compliance requirements;

       •    gaining an understanding of internal control over financial reporting and the
            Federal programs;

       •    testing internal control over major programs;




                                             8
•   determining compliance with laws, regulations, and the provisions of contract
    or grant agreements that have a direct and material effect on financial
    reporting and on each major program; and

•   satisfying the additional requirements of the Single Audit Act and OMB
    Circular A-133 regarding work papers, audit follow-up, and reporting.




                                    9
Appendix B. Coordinated Audit Responsibilities

                                                       Audit Responsibilities
    OMB Circular A-133 Compliance                    DCAA               PWC
           Requirements

Activities Allowed/Unallowed                                              X

Allowable Costs/Cost Principles                 X(Contracts Only)   X(Grants Only)

Cash Management                                                           X

Davis-Bacon Act                                                           X

Eligibility                                                               X

Equipment and Real Property Management                                    X

Matching, Level of Effort, Earmarking                                     X

Period of Availability of Federal Funds                                   X

Procurement, Suspension, and Debarment                                    X

Program Income                                                            X

Real Property Acquisition and Relocation                                  X
Assistance
Reporting                                                                 X

Subrecipient Monitoring                                                   X

Special Tests and Provisions                                              X




                                           10
Appendix C. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Defense Procurement

Other Defense Organizations
Director, Defense Contract Audit Agency
Branch Manager, Defense Contract Audit Agency San Fernando Branch Office

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Air Force Audit Agency

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Chief, Office of Naval Research
Audit Liaison, Assistant Secretary of the Navy
  Financial Management and Comptroller
Naval Inspector General

Other Federal Agencies
Office of the Inspector General, Department of Agriculture
Office of the Inspector General, Department of Education
Office of the Inspector General, Department of Energy
Office of the Inspector General, Department of Health and Human Services
Office of the Inspector General, Department of Justice
Office of the Inspector General, Department of State
Office of the Inspector General, Department of Veteran Affairs
Office of the Inspector General, Environmental Protection Agency
Office of the Inspector General, National Aeronautics and Space Administration
Office of the Inspector General, National Science Foundation
Office of the Inspector General, Social Security Administration
Office of the Inspector General, U.S. Agency for International Development

Non-Government Organizations
Board of Directors, RAND Corporation


                                           11
Audit Committee, RAND Corporation.
Treasurer, RAND Corporation
Director of Financial Reporting and Accounting, RAND Corporation
Partner-in-Charge, PricewaterhouseCoopers, LLP
Audit Manager, PricewaterhouseCoopers, LLP

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census




                                        12
Defense Contract Audit Agency Comments




                    13
14
15
16
17
PricewaterhouseCoopers Comments




                    18
19
20
